TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                       Challenges Remain When Processing
                        Undeliverable Mail and Preventing
                         Violations of Taxpayers’ Rights
                           During the Lien Due Process



                                           May 13, 2011

                              Reference Number: 2011-30-051




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 1 = Tax Return/Return Information




 Phone Number | 202-622-6500
 Email Address | TIGTACommunications@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                    HIGHLIGHTS

                                                       In addition, the IRS did not always follow its own
CHALLENGES REMAIN WHEN                                 regulations for notifying taxpayers’
PROCESSING UNDELIVERABLE MAIL                          representatives of the filing of lien notices. IRS
AND PREVENTING VIOLATIONS OF                           regulations require taxpayer representatives be
TAXPAYERS’ RIGHTS DURING THE LIEN                      given copies of all correspondence issued to the
                                                       taxpayer. For four of the 30 cases in the sample
DUE PROCESS
                                                       for which the taxpayer had an authorized
                                                       representative, the IRS did not notify the
Highlights                                             taxpayer’s representative of the lien filing.
                                                       TIGTA estimated that 32,552 taxpayers may
Final Report issued on May 13, 2011                    have been adversely affected because the IRS
                                                       did not follow requirements to notify the
Highlights of Reference Number: 2011-30-051            taxpayers and their representatives of the
to the Internal Revenue Service Commissioners          taxpayers’ rights related to liens.
for the Small Business/Self-Employed Division
                                                       When an initial lien notice is returned
and the Wage and Investment Division.
                                                       undeliverable and a different address is
IMPACT ON TAXPAYERS                                    available for the taxpayer, the IRS does not
                                                       always send the lien notice to the taxpayer’s last
After filing Notices of Federal Tax Lien, the          known address. TIGTA identified cases for
Internal Revenue Service (IRS) must notify the         which a new lien notice should have been sent
affected taxpayers in writing, at their last known     to the taxpayer’s updated address because IRS
address, within five business days of the lien         systems reflected the updated address prior to
filings. However, as noted in previous audits,         the lien filing. These cases could involve legal
the IRS has not always complied with this              violations because the IRS did not meet its
statutory requirement and did not always follow        statutory requirement to send lien notices to the
its own internal guidelines for notifying taxpayer     taxpayer’s last known address.
representatives of the filing of lien notices.
Therefore, some taxpayers’ rights to appeal the        WHAT TIGTA RECOMMENDED
lien filings may have been jeopardized, and
                                                       TIGTA recommended that the Directors,
others may have had their rights violated when
                                                       Collection and Campus Compliances Services,
the IRS did not notify their representatives of lien
                                                       Small Business/Self-Employed Division, and the
filings.
                                                       Director, Compliance, Wage and Investment
WHY TIGTA DID THE AUDIT                                Division, ensure that procedures to address the
                                                       handling of undelivered lien notices are
TIGTA is required by law to determine annually         consistent. The IRS agreed with our
whether lien notices issued by the IRS comply          recommendation and plans to reevaluate
with the legal guidelines in Internal Revenue          procedures to ensure they are consistent across
Code Section 6320.                                     the functions and support the timely resolution of
                                                       undeliverable notices.
WHAT TIGTA FOUND
TIGTA reviewed a statistically valid sample of
125 Federal Tax Liens filed for the 12-month
period ending June 30, 2010, and determined
that the IRS mailed nearly every lien notice in a
timely manner as required by Internal Revenue
Code Section 6320. However, TIGTA could not
determine if all notices were mailed timely. This
could result in violations of taxpayers’ rights.
                                                   DEPARTMENT OF THE TREASURY
                                                          WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                       May 13, 2011


 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION
                COMMISSIONER, WAGE AND INVESTMENT DIVISION

 FROM:                           Michael R. Phillips
                                 Deputy Inspector General for Audit

 SUBJECT:                        Final Audit Report – Challenges Remain When Processing
                                 Undeliverable Mail and Preventing Violations of Taxpayers’ Rights
                                 During the Lien Due Process (Audit #201130001)

 This report presents the results of our review to determine whether liens issued by the Internal
 Revenue Service (IRS) comply with legal guidelines set forth in Internal Revenue Code (I.R.C.)
 Section (§) 6320 (a)1 and related guidance in the Federal Tax Lien Handbook. The Treasury
 Inspector General for Tax Administration is required by law to determine annually whether lien
 notices issued by the IRS comply with the legal guidelines in I.R.C. § 6320.2 The audit was
 included in our Fiscal Year 2011 Annual Audit Plan and addresses the major management
 challenge of Taxpayer Protection and Rights.
 Management’s complete response to the draft report is included as Appendix VIII.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendation.
 Please contact me at (202) 622-6510 if you have questions or Margaret E. Begg, Assistant
 Inspector General for Audit (Compliance and Enforcement Operations), at (202) 622-8510.




 1
     26 U.S.C. § 6320 (Supp IV. 2010).
 2
     26 U.S.C. § 7803(d)(1)(A)(iii) (Supp. IV 2010).
                            Challenges Remain When Processing Undeliverable Mail
                                and Preventing Violations of Taxpayers’ Rights
                                         During the Lien Due Process




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 4
          Lien Notices Were Mailed Timely, but Proof of Mailing
          Could Not Always Be Located ..................................................................... Page 4
          The Internal Revenue Service Did Not Comply With
          Regulations for Notifying Taxpayer Representatives ................................... Page 4
          Ineffective Working of Undelivered Lien Notices
          Resulted in Potential Violations of Taxpayers’ Rights ................................. Page 6
                    Recommendation 1:...................................................... Page 10


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 11
          Appendix II – Major Contributors to This Report ........................................ Page 14
          Appendix III – Report Distribution List ....................................................... Page 15
          Appendix IV – Outcome Measures............................................................... Page 16
          Appendix V – Synopsis of the Internal Revenue Service
          Collection and Lien Filing Processes ............................................................ Page 18
          Appendix VI – Internal Revenue Service Computer Systems
          Used in the Filing of Notices of Federal Tax Lien ....................................... Page 20
          Appendix VII – Statutory Lien Reports Issued During
          Fiscal Years 2006 Through 2010 .................................................................. Page 21
          Appendix VIII – Management’s Response to the Draft Report ................... Page 22
         Challenges Remain When Processing Undeliverable Mail
             and Preventing Violations of Taxpayers’ Rights
                      During the Lien Due Process




                     Abbreviations

ACS            Automated Collection System
ALS            Automated Lien System
CAF            Centralized Authorization File
FY             Fiscal Year
ICS            Integrated Collection System
IDRS           Integrated Data Retrieval System
I.R.C.         Internal Revenue Code
IRS            Internal Revenue Service

SB/SE          Small Business/Self-Employed
                         Challenges Remain When Processing Undeliverable Mail
                             and Preventing Violations of Taxpayers’ Rights
                                      During the Lien Due Process




                                             Background

The Internal Revenue Service (IRS) attempts to collect Federal taxes due from taxpayers by
sending letters, making telephone calls, and meeting face to face with taxpayers. The IRS has
the authority to attach a claim to the taxpayer’s assets for the amount of unpaid tax when the
taxpayer neglects or refuses to pay.1 This claim is referred to as a Federal Tax Lien. The IRS
files in appropriate local government offices a Notice of Federal Tax Lien,2 which notifies
interested parties that a lien exists.
Since January 19, 1999, Internal Revenue Code (I.R.C.) Section (§) 63203 has required the IRS
to notify taxpayers in writing within 5 business days of
the filing of a Notice of Federal Tax Lien. The IRS is
required to notify taxpayers the first time a Notice of         Upon receiving a lien notice,
Federal Tax Lien is filed for each tax period. A Notice         the taxpayer has 30 calendar
                                                                  days to request a hearing
of Federal Tax Lien Filing and Your Right to a Hearing                with IRS Appeals.
Under IRC 63204 (Letter 3172) (lien notice) is used for
this purpose and advises taxpayers that they have
30 calendar days, after that 5-day period, to request a hearing with the IRS Appeals office. The
lien notice indicates the date on which this 30-day period expires.
The law also requires that the lien notice explain, in simple terms, the amount of unpaid tax,
administrative appeals available to the taxpayer, and provisions of the law and procedures
relating to the release of liens on property. The lien notice must be given in person, left at the
taxpayer’s home or business, or sent by certified or registered mail to the taxpayer’s last known
address.5
Most lien notices are mailed to taxpayers by certified or registered mail rather than being
delivered in person. The IRS Automated Lien System (ALS) generates a certified mail list
which identifies each notice that is to be mailed. The notices and a copy of the certified mail list
are delivered to the United States Postal Service. A Postal Service employee ensures that all
notices are accounted for, date stamps the list, and returns a copy to the IRS. The stamped
certified mail list is the only documentation the IRS has that certifies the date on which the


1
  26 U.S.C. § 6321 (Supp IV. 2010).
2
  Notice of Federal Tax Lien (Form 668(Y) (c); (Rev. 10-1999)), Cat. No. 60025X.
3
  26 U.S.C. § 6320 (Supp IV. 2010).
4
  Notice of Federal Tax Lien Filing and Your Right to a Hearing Under IRC 6320 (Letter 3172 (Rev. 9-2006)),
Cat. No. 26767I.
5
  The last known address is that one shown on the most recently filed and properly processed tax return, unless the
IRS received notification of a different address.
                                                                                                             Page 1
                           Challenges Remain When Processing Undeliverable Mail
                               and Preventing Violations of Taxpayers’ Rights
                                        During the Lien Due Process



notices were mailed. A synopsis of the IRS collection and lien filing processes is included in
Appendix V.
Depending on employee access, lien requests can be generated using one of three IRS systems:
1) the Integrated Collection System (ICS), 2) the Automated Collection System (ACS), or
3) the ALS. Appendix VI provides a description of IRS computer systems used in the filing of
lien notices.
As shown in Figure 1, the IRS has increased the number of Federal Tax Liens it has filed to
protect the Federal Government’s interest by 74 percent since Fiscal Year (FY) 2006.
                      Figure 1: Number of Liens Filed From FYs 2006–2010




     Source: IRS Data Books published in FYs 2003 and 2007 through 2010.

The Treasury Inspector General for Tax Administration is required to determine annually
whether, when filing lien notices, the IRS complied with the law regarding the notifications of
affected taxpayers and their representatives.6 This is our thirteenth annual audit to determine
whether the IRS complied with the legal requirements of I.R.C. § 6320 and its own related
internal guidelines for filing lien notices. In prior years, we reported that the IRS had not yet
achieved full compliance with the law and its own internal guidelines. As repeat findings, we
identified potential violations of taxpayer rights because the IRS did not timely notify taxpayers
or their representatives. In addition, our review of a judgmental sample of undelivered lien
notices found potential violations of taxpayer rights when the IRS did not use the taxpayer’s last
known address.




6
    26 U.S.C. § 7803(d)(1)(A)(iii) (Supp. IV 2010).
                                                                                            Page 2
                            Challenges Remain When Processing Undeliverable Mail
                                and Preventing Violations of Taxpayers’ Rights
                                         During the Lien Due Process



Figure 2 shows the percentages of potential violations of taxpayer rights we identified during our
prior annual audits.
     Figure 2: Potential Violations of Taxpayer Rights Based on Timely Notification




Source: Treasury Inspector General for Tax Administration statutory lien reports issued during FYs 2006–2010.7

This review was performed at the Small Business/Self-Employed (SB/SE) Division Office of
Collection Policy in Washington, D.C.; the Centralized Case Processing – Lien Unit and the
ACS Support function in Covington, Kentucky; and the ACS Support function in Fresno,
California, during the period August 2010 through February 2011. We conducted this
performance audit in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objective. We
believe that the evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objective. Detailed information on our audit objective, scope, and
methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




7
    See Appendix VII for a list of prior reports.
                                                                                                        Page 3
                        Challenges Remain When Processing Undeliverable Mail
                            and Preventing Violations of Taxpayers’ Rights
                                     During the Lien Due Process




                                      Results of Review

Lien Notices Were Mailed Timely, but Proof of Mailing Could Not
Always Be Located
I.R.C. § 6320 requires the IRS to notify taxpayers in writing, at their last known address, within
5 business days of the filing of a Notice of Federal Tax Lien. We statistically sampled 125 lien
notices from the 1,017,263 lien notices filed between July 1, 2009, and June 30, 2010. The IRS
timely and correctly mailed the taxpayers’ notices of a lien filing and appeal rights as required by
I.R.C. § 6320 for **1** cases (approximately **1** percent). However, for *****1**********
***********************************1****************************************
******1**********. Proof of mailing consists of certified and registered mail lists showing a
United States Postal Service date stamp. The certified mail list is produced by the ALS along
with the taxpayer notice and stamped by the United States Postal Service with the date of
mailing. The certified mail list is then forwarded to the Centralized Case Processing – Lien Unit
for recordkeeping. IRS procedures require retention of the date-stamped copy of the certified
mail list for 10 years after the end of the processing year.
*************************************1**************************************
*****************************************************************************
*****************************************************************************
*****************************************************************************
******************************************.
After we brought this observation to management’s attention, ****************1***********
**********************.

The Internal Revenue Service Did Not Comply With Regulations for
Notifying Taxpayer Representatives
Taxpayer representative information is contained on the Centralized Authorization File (CAF)8
that is located on the Integrated Data Retrieval System (IDRS).9 Using the IDRS, employees can
research the CAF to identify the types of authorization given to taxpayer representatives.


8
  The CAF contains information about the type of authorizations taxpayers have given their representatives for their
tax returns.
9
  IRS computer system capable of retrieving or updating stored information; it works in conjunction with a
taxpayer’s account records.
                                                                                                             Page 4
                        Challenges Remain When Processing Undeliverable Mail
                            and Preventing Violations of Taxpayers’ Rights
                                     During the Lien Due Process



IRS procedures10 provide that notices are to be given to recognized taxpayer representatives.
Specifically, any notice or other written communication (or a copy thereof) required or permitted
to be given to a taxpayer in any matter before the IRS must be given to the taxpayer and, unless
restricted by the taxpayer, to the representative. Accordingly, IRS procedures require the
requestor of a lien to ensure they notify the Centralized Case Processing – Lien Unit of all
powers of attorney and co-obligors that are to be notified. More specifically, when a Notice of
Federal Tax Lien is filed, IRS procedures require that a copy of the notice be sent to the
taxpayer’s representative no later than 5 business days after the notice is sent to the taxpayer.
Our review of the statistically valid sample of 125 liens included 30 cases with representatives
authorized to receive notifications at the time the liens were filed. For 4 (13 percent) of the
30 taxpayers, ALS records did not indicate that the IRS had sent copies of the lien notices to
their representatives. Specifically:
     • *****************************1****************************************
         **********************************************************************
         **********************************************************************
         ********************************************************.
     • **************************************1******************************
         *********************************************************************
         **********************************************************************
         *****************************************************************.
We project that 32,552 taxpayers may have been adversely affected because the IRS did not
follow requirements to notify both the taxpayers and their representatives of the taxpayers’ rights
related to liens. We are 95 percent confident that the range of potential violations is between
1,042 and 64,063. In addition to this year’s results, Figure 3 shows the error rates reported on
the notification of taxpayer representatives in our last five reports.




10
  26 Code of Federal Regulations § 601.506.
11
  Employees in the Collection Field function who attempt to contact taxpayers and resolve collection matters that
have not been resolved through notices sent by the IRS campuses or the ACS. Campuses are the data processing
arm of the IRS. The campuses process paper and electronic submissions, correct errors, and forward data to the
Computing Centers for analysis and posting to taxpayer accounts.
                                                                                                           Page 5
                        Challenges Remain When Processing Undeliverable Mail
                            and Preventing Violations of Taxpayers’ Rights
                                     During the Lien Due Process



     Figure 3: Error Rates Reported on Notification of Taxpayer Representatives
                         Sampled Lien Cases                   Sampled Lien Cases Not
                       Requiring Representative               Receiving Representative               Error
     Report FY               Notification                           Notification                     Rate
       2006                       45                                     34                           76%
       2007                       25                                     15                           60%
       2008                       30                                     12                           40%
       2009                       27                                     8                            30%
       2010                       31                                     8                            26%
       2011                       30                                     4                            13%
 Source: Prior and current year results of Treasury Inspector General for Tax Administration tests of taxpayer
 representative notification.

While the error rate has been reduced from 76 percent in our FY 2006 report to 13 percent in our
FY 2011 report, the potential for violations still exists in cases requiring taxpayer representative
notification.
In the FY 2009 report, we identified similar conditions and made a recommendation to
implement computer programming enhancements for an automated upload of CAF data to the
ALS. The corrective actions for this recommendation are scheduled to be implemented later in
FY 2011. Because these corrective actions are scheduled to occur during FY 2012’s sample
selection, this process will be evaluated during next year’s statutory review.

Ineffective Working of Undelivered Lien Notices Resulted in Potential
Violations of Taxpayers’ Rights
IRS procedures require that employees send another lien notice to a new address if: 1) the
originally mailed notice is returned as undelivered mail, 2) research confirms the original lien
notice was not sent to the last known address, and 3) the new address was effective prior to or
during the same cycle12 of the Notices of Federal Tax Lien filing that caused the lien notice to be
issued. Collection function employees are responsible for certain actions when notices are
returned as undeliverable. For example, they should research the IRS computer system within
7 calendar days to ensure that the address on the original lien notice is correct. If the employee
cannot find a new address on the computer system, the undelivered lien notice will be destroyed
and a new notice is not issued.




12
  Cycle refers to the IRS method of documenting dates (i.e., Processing Cycle 201102 is the second week of
January 2011).
                                                                                                             Page 6
                         Challenges Remain When Processing Undeliverable Mail
                             and Preventing Violations of Taxpayers’ Rights
                                      During the Lien Due Process



If the address on the notice is not the last known address and a different address was in effect
prior to filing of the original lien notice, employees should issue a new notice to the better
address. A new notice may be created by using an option in the ALS.
We selected a judgmental sample of 250 undelivered lien notices returned to the Cincinnati
(125 lien notices) and Fresno (125 lien notices) Campuses in October 2010. The sample
included only returned lien notices identified as undelivered and did not include returned mail
identified as refused or unclaimed. We selected the Cincinnati and Fresno Campuses because
the lien notices issued by the SB/SE and Wage and Investments Divisions’ ACS sites returned as
undeliverable are sent to those locations. This provided a sufficient volume to select our sample.
For these 250 notices, we reviewed computer system audit trails to determine whether IRS
employees performed timely research to determine whether the addresses were correct on the
originally mailed notices. The 250 returned notices were handled by employees as follows:
     •   For 204 (82 percent) of the 250 notices, employees did not perform required research of
         the IRS computer system for a different address within 7 calendar days of receipt of the
         returned notice.
     •   For 46 (18 percent) of the 250 notices, employees performed the required research within
         7 calendar days of receipt of the returned notice.
Our test of undelivered lien notices identified 23 of 250 notices for which the address on the IRS
computer system and the original lien notice did not agree. For 12 (52 percent) of the 23 notices,
the address on the IRS computer system was updated after the original lien notice was sent to the
taxpayer. Therefore, no additional action was required. For 11 notices (48 percent), the address
was updated prior to the issuance of the original lien notice and, according to IRS procedures, a
new lien notice should have been sent to the taxpayer at the updated address. However, the IRS
only reissued 8 of the 11 notices to the updated address. The three notices not reissued could
involve potential violations of taxpayer rights because the IRS did not meet its statutory
requirement of sending each lien notice to the taxpayer’s last known address. For example, in
March 2010, the United States Tax Court13 found that an IRS lien notice was invalid because it
was not mailed to the individual’s last known address.
When we brought this observation to management’s attention, *****************1********
*******************1*******************************************************
**************************************************************
In July 2010, the IRS implemented procedures intended to improve customer service to
taxpayers. Specifically, the procedures allowed employees to send a courtesy copy of the lien

13
   The United States Tax Court, in a case filed March 1, 2010, found that the lien notice issued with respect to a
taxpayer’s 2002 tax return was not mailed to the taxpayer’s last known address, nor was it received and, therefore, it
is invalid. Consequently, the IRS is required, under the provisions of § 6320 and the accompanying regulations, to
issue to the taxpayer a substitute lien notice and provide him or her with an opportunity to request a lien hearing.
                                                                                                              Page 7
                     Challenges Remain When Processing Undeliverable Mail
                         and Preventing Violations of Taxpayers’ Rights
                                  During the Lien Due Process



notice to a taxpayer’s new address if the new address was effective during the cycle after the
original lien notice was issued. ***************************1**********************
**************************1******************. While the courtesy copy procedure is
voluntary and not a statutory requirement, following the procedure allows the IRS an opportunity
to provide better customer service to the taxpayer.
Lien notices are not sent to the most current addresses because, in part, user guides and
procedures for the systems that generate lien requests are inconsistent regarding address
verification and the timing of the address change. Specifically:
   •   One set of IRS procedures requires a new notice be sent to the taxpayer if the address
       change is effective in the same cycle or the cycle before the lien is filed.
   •   Another set of IRS procedures requires a new notice be sent to the taxpayer if the address
       change is effective at the time the notice was requested.
   •   A third set of IRS procedures requires a new notice be sent to the taxpayer if the address
       change is effective in the cycle that corresponds to the date on the lien notice.
In addition, employees are not always following established procedures for verifying the current
address of the taxpayer prior to preparing a lien request. Finally, the ALS does not currently
perform an automated verification of the taxpayer’s last known address prior to printing the lien
notice.
IRS management advised us that the procedures for requiring the research and resolution of
undelivered lien notices within 7 calendar days do not pertain to the ACS. However, we
identified no exception for the ACS. IRS procedures provide that all undelivered mail be
returned to the requesting employee or the office designated the responsibility of processing
undelivered lien notices and researched and resolved within 7 calendar days of receipt. The
ACS Support functions at the Cincinnati and Fresno Campuses have been designated by the
SB/SE and Wage and Investment Divisions to receive all undelivered lien notices filed by the
ACS since the process (address verification of undelivered lien notices) was decentralized in
August 2007.
IRS management also indicated that the routing of the undelivered lien notices could have
contributed to the untimely research of the undelivered mail. Specifically, all returned mail is
received at the Cincinnati and Fresno Campuses, where it is extracted and sorted by mail type.
The returned lien notices are routed to the ACS Support functions that are located in different
buildings, where employees actually perform the research on IRS computer systems to identify
the last known addresses. This routing can delay the processing of the mail, which could have
caused the undelivered mail not to be researched within the required 7 calendar days of receipt of
the returned notice.
In the FY 2009 report, we identified similar conditions and made a recommendation to
implement computer programming enhancements to include an automated check of a taxpayer’s
                                                                                            Page 8
                     Challenges Remain When Processing Undeliverable Mail
                         and Preventing Violations of Taxpayers’ Rights
                                  During the Lien Due Process



last known address prior to the printing of lien notices. The corrective actions for this
recommendation are scheduled to be implemented later in FY 2011. Because these corrective
actions are scheduled to occur before FY 2012’s undelivered lien notice sample selection, this
process will be evaluated during next year’s statutory review.

Employees are still not following procedures designed to monitor undeliverable
lien notices
In August 2007, procedures for handling undelivered lien notices were revised to return the
undelivered lien notice directly to the requesting employee or function. Employees handling
undelivered lien notices were also required to input a specific IDRS transaction code with an
appropriate action code. The transaction code signifies that the lien notice was returned and the
action code indicates the reason (i.e., undelivered, unclaimed, or refused). These codes are
required to be entered into the IDRS after appropriate research of the returned lien notice is
performed.
In August 2009, the ALS was enhanced to perform a weekly systemic extract to send the
appropriate undeliverable status (transaction code and action code) of lien notices to the IDRS
using a specific command. When this command is used to update the status of the lien notice, no
additional input is necessary to update the IDRS. When a lien notice is returned undelivered and
research has been completed regarding an updated address, the employee should go to the lien
notice screen on the ALS and indicate undelivered status.
Our test of undelivered lien notices determined that the IRS is not complying with this
procedure. None of the 250 undelivered lien notices that we sampled had a transaction code or
associated action code input to the IDRS. For our sample, the ALS was not updated with the
status of the undelivered lien notices and, therefore, the upload to the IDRS (via the ALS) did not
occur. As a result, there is no record of the mail status of these lien notices. Management
advised us that the requirements to enter these codes do not apply to the ACS. However, as we
reported previously, the ACS Support function has been designated by the SB/SE and Wage and
Investment Divisions to receive all undelivered lien notices that were filed by the ACS since the
process (address verification of undelivered lien notices) was decentralized in August 2007.
Accordingly, the requirement provides that the person designated the responsibility of processing
undelivered lien notices will also check the IDRS for a last known address and request the input
of the transaction code with the appropriate action code or the command code enhancement via
the ALS.
Compliance with these procedures is important because it allows management to review the
handling of undelivered lien notices. Undelivered lien notices are being sent back to more than
450 Collection function groups throughout the country, where the employees or functions that
requested the liens are located. The combination of decentralizing the handling of undelivered
lien notices and the failure of employees to update taxpayers’ data in the IDRS resulted in
management’s inability to ensure and enforce the timely resolution of undelivered lien notices.

                                                                                            Page 9
                        Challenges Remain When Processing Undeliverable Mail
                            and Preventing Violations of Taxpayers’ Rights
                                     During the Lien Due Process



This situation continues to contribute to the number of undelivered lien notices that were not
researched timely. Past reviews show the percentage increasing from 33 percent in our FY 2008
report to nearly 83 percent in our FY 2009 report, 84 percent in our FY 2010 report, and
82 percent in our FY 2011 report.
Further, because employees are not following the procedures to enter the undeliverable notice
status into the IDRS via transaction and action codes, the information about the undeliverable
notice is limited to only those employees working the undeliverable mail. IRS management,
including Accounts Management organization14 employees and Centralized Case Processing –
Lien Unit employees who have access to the ALS, do not have access to information on
undelivered lien notices. As a result, Taxpayer Assistance Center15 employees would not be able
to answer taxpayer questions about their Federal Tax Liens.
This is the third consecutive year in which we have reported 100 percent noncompliance with
this procedure. IRS management is aware of this condition and is currently evaluating the
necessity of the procedure.

Recommendation
Recommendation 1: The Directors, Collection and Campus Compliance Services,
SB/SE Division, and the Director, Compliance, Wage and Investment Division, should ensure
that procedures that address the handling of undelivered lien notices are consistent and include
the same requirements for timely research of undelivered notices and when a new notice should
be sent.
        Management’s Response: IRS management agreed with this recommendation.
        Collection Policy and Campus Filing and Payment Compliance will reevaluate
        procedures to ensure they are consistent across the functions and support the timely
        resolution of undeliverable notices.




14
   The Accounts Management organization is responsible for providing taxpayers with information on the status of
their returns, refunds, and for resolving the majority of issues and questions to settle their accounts.
15
   IRS offices with employees who answer questions, provide assistance, and resolve account-related issues for
taxpayers face to face.
                                                                                                        Page 10
                        Challenges Remain When Processing Undeliverable Mail
                            and Preventing Violations of Taxpayers’ Rights
                                     During the Lien Due Process



                                                                                                 Appendix I

         Detailed Objective, Scope, and Methodology

Our overall objective was to determine whether liens issued by the IRS comply with legal
guidelines set forth in I.R.C. Section (§) 6320 (a)1 and related guidance in the Federal Tax Lien
Handbook. To accomplish the objective, we:
I.      Determined whether taxpayer lien notices related to 125 Federal Tax Liens filed by the
        IRS complied with legal requirements set forth in I.R.C. § 6320 (a) and related internal
        guidelines.
        A. Selected a statistically valid sample of 125 Federal Tax Lien cases from the ALS2
           extract of the 1,017,263 liens filed by the IRS nationwide between July 1, 2009, and
           June 30, 2010. We used a statistical sample because we wanted to project the number
           of cases with errors. We used attribute sampling to calculate the minimum sample
           size (n),3 which we rounded to 125:
              n = (Z2 p(1-p))/(A2)             1,017,263
              Z = Confidence Level:            95 percent
              p = Expected Rate of Occurrence: 3 percent
              A = Precision Rate:              ±3 percent
        B. Validated the ALS extract by comparing the sampled records to online data and
           discussing with SB/SE Division management data checks ensuring reliability,
           completeness, and accuracy.
        C. Determined whether the sampled liens adhered to legal guidelines regarding timely
           notifications of lien filings to the taxpayer, the taxpayer’s spouse, or business partners
           by reviewing data from the ALS and the certified mail list.
        D. Evaluated the controls and procedures established for transferring, storing, and
           safeguarding certified mail lists at the Centralized Case Processing – Lien Unit
           function.
        E. Determined whether taxpayers’ representatives were provided a copy of the lien due
           process notice by reviewing data from the ALS, IDRS, ICS, and ACS.


1
  26 U.S.C. § 6320 (Supp IV. 2010).
2
  See Appendix VI for descriptions of IRS computer systems used in the filing of Notices of Federal Tax Lien.
3                    2          2
  The formula n = (Z p(1-p))/(A ) is from Sawyer’s Internal Auditing – The Practice of Modern Internal Auditing,
4th Edition, pp. 462-464.
                                                                                                         Page 11
                        Challenges Remain When Processing Undeliverable Mail
                            and Preventing Violations of Taxpayers’ Rights
                                     During the Lien Due Process



             1. Reviewed IDRS screens for CAF indicators (Transaction Code 960 and
                Command Code CFINK) for all sampled cases.
             2. Reviewed ALS history screens for accounts with CAF indicators to see if lien
                notices were mailed to taxpayers’ representatives within 5 business days of
                mailing the taxpayers’ notices.
        F. Reviewed the ACS and the ICS for taxpayer representatives/powers of attorney
           indicators and matched tax periods to ensure that all taxpayer representatives/powers
           of attorney listed on the ACS and the ICS were provided notification per the ALS.
        G. Provided all exception cases to the Office of Collection Policy, SB/SE Division, for
           agreement to potential violations and corrective actions if appropriate.
II.     Evaluated the procedures for processing lien notices (Letters 3172)4 that are returned as
        undelivered.
        A. Selected a judgmental sample of 250 unprocessed mail items containing undelivered
           lien notices received during October 2010 in the Cincinnati (125) and Fresno (125)
           Campuses5 and recorded the taxpayer’s name, address, Social Security Number, and
           serial lien identification number. The judgmental sample included only returned mail
           identified as undelivered. The population of returned mail identified as undelivered is
           unknown because the IRS does not record the receipt of undelivered mail. A
           judgmental sample was used for this reason, and the test was conducted to show
           weaknesses for which management needed to take corrective action.
        B. Researched IDRS using Command Codes INOLES and ENMOD and determined
           whether the address on the Master File6 matched the address on the undelivered lien
           notice for each sampled case.
        C. Reviewed taxpayer audit trails to determine whether ACS Support function
           employees performed the required IDRS research during creation of the lien.
        D. Reviewed IDRS audit trails to determine whether ACS Support function employees
           performed the required IDRS research for resolution of undeliverable status within
           7 calendar days of receipt.
        E. Reviewed the ALS and verified whether the status of the lien notice was updated to
           undelivered.

4
  Notice of Federal Tax Lien Filing and Your Right to a Hearing Under IRC 6320 (Letter 3172 (Rev. 9-2006)),
Cat. No. 26767I.
5
  Campuses are the data processing arm of the IRS. The campuses process paper and electronic submissions, correct
errors, and forward data to the Computing Centers for analysis and posting to taxpayer accounts.
6
  The IRS database that stores various types of taxpayer account information. This database includes individual,
business, and employee plans and exempt organizations data.
                                                                                                        Page 12
                    Challenges Remain When Processing Undeliverable Mail
                        and Preventing Violations of Taxpayers’ Rights
                                 During the Lien Due Process



III.   Determined whether IRS internal guidelines have been modified since our last review.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the SB/SE Division Collection function’s
policies, procedures, and practices for timely notifying taxpayers of lien filings and timely
verifying addresses of undelivered lien notices. We evaluated these controls by interviewing
management and reviewing samples of lien notices sent to taxpayers and lien notices returned to
the IRS as undelivered.




                                                                                         Page 13
                   Challenges Remain When Processing Undeliverable Mail
                       and Preventing Violations of Taxpayers’ Rights
                                During the Lien Due Process



                                                                             Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Carl Aley, Director
Timothy Greiner, Audit Manager
Meaghan Tocco, Lead Auditor
Mike Garcia, Senior Auditor
Steven Stephens, Senior Auditor
Nicole DeBernardi, Auditor
Stephen Elix, Auditor
Kevin O’Gallagher, Information Technology Specialist




                                                                                      Page 14
                  Challenges Remain When Processing Undeliverable Mail
                      and Preventing Violations of Taxpayers’ Rights
                               During the Lien Due Process



                                                                         Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Chief Counsel CC
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Deputy Commissioner, Wage and Investment Division SE:W
Director, Campus Compliance Services, Small Business/Self-Employed Division SE:S:CCS
Director, Collection, Small Business/Self-Employed Division SE:S:C
Director, Collection Policy, Small Business/Self-Employed Division SE:S:C:CP
Director, Compliance, Wage and Investment Division SE:W:CP
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Commissioner, Small Business/Self-Employed Division SE:S
       Commissioner, Wage and Investment Division SE:W




                                                                                 Page 15
                        Challenges Remain When Processing Undeliverable Mail
                            and Preventing Violations of Taxpayers’ Rights
                                     During the Lien Due Process



                                                                                             Appendix IV

                                    Outcome Measures

This appendix presents detailed information on the measurable impact that our corrective actions
will have on tax administration. These benefits will be incorporated into our Semiannual Report
to Congress.

Type and Value of Outcome Measure:
•   Taxpayer Rights and Entitlements – Actual; ***********1***************************
    *************************************************************************
    **************************************************************.

Methodology Used to Measure the Reported Benefit:
From a statistically valid sample of 125 Federal Tax Lien cases, ******************1*******
*****************************************************************************
********************************************.

Type and Value of Outcome Measure:
•   Taxpayer Rights and Entitlements – Potential; 32,552 taxpayer representatives may not have
    been provided Letters 3172, resulting in potential violations of taxpayers’ rights (see page 4).

Methodology Used to Measure the Reported Benefit:
From a statistically valid sample of 125 Federal Tax Lien cases, we identified 30 cases with
representatives authorized to receive notifications at the time the liens were filed. From those
30 cases, we identified 4 (13 percent) cases for which IRS employees did not provide notice to
taxpayer representatives, resulting in potential violations of taxpayers’ rights. The sample was
selected based on a confidence level of 95 percent, a precision rate of ±3 percent, and an
expected rate of occurrence of 3 percent. We projected the findings to the total population
provided by the IRS of 1,017,263 Notices of Federal Tax Lien generated by the ALS between
July 1, 2009, and June 30, 2010.




1
 Notice of Federal Tax Lien Filing and Your Right to a Hearing Under I.R.C. 6320 (Letter 3172 (Rev. 9-2006)),
Cat. No. 26767I.
                                                                                                       Page 16
                     Challenges Remain When Processing Undeliverable Mail
                         and Preventing Violations of Taxpayers’ Rights
                                  During the Lien Due Process



Type and Value of Outcome Measure:
•   Taxpayer Rights and Entitlements – Actual; three taxpayers were not provided Letters 3172,
    resulting in potential legal violations of taxpayers’ rights (see page 6).

Methodology Used to Measure the Reported Benefit:
In a judgmental sample of 250 undelivered lien notices, we determined that the IRS did not send
notices to the updated addresses of 3 taxpayers. Taxpayer rights could be affected because a
taxpayer not receiving a notice or receiving a late notice might be unaware of the right to appeal
or might receive less than the 30-calendar day period allowed by the law to request a hearing. In
addition, taxpayer rights could be further affected when the taxpayer appeals the filing of the lien
and the IRS denies the request for the appeal.




                                                                                            Page 17
                        Challenges Remain When Processing Undeliverable Mail
                            and Preventing Violations of Taxpayers’ Rights
                                     During the Lien Due Process



                                                                                                Appendix V

             Synopsis of the Internal Revenue Service
               Collection and Lien Filing Processes

The collection of unpaid tax begins with a series of letters (notices) sent to the taxpayer advising
them of the debt and asking for payment of the delinquent tax. IRS computer systems are
programmed to mail these notices when certain criteria are met. If the taxpayer does not respond
to these notices, the account is transferred for either personal or telephone contact.
    •   IRS employees who make personal (face-to-face) contact with taxpayers are called
        revenue officers and work in various locations. The ICS1 is used in most of these
        locations to track collection actions taken on taxpayer accounts.
    •   IRS employees who make only telephone contact with taxpayers work in call sites in
        Customer Service offices. The ACS is used in the call sites to track collection actions
        taken on taxpayer accounts.
When these efforts have been taken and the taxpayer has not paid the tax liability, designated
IRS employees are authorized to file a lien by sending a Notice of Federal Tax Lien2 to
appropriate local government offices. Liens protect the Federal Government’s interest by
attaching a claim to the taxpayer’s assets for the amount of unpaid tax. The right to file a Notice
of Federal Tax Lien is created by I.R.C. Section (§) 6321 (1994) when:
    •   The IRS has made an assessment and given the taxpayer notice of the assessment, stating
        the amount of the tax liability and demanding payment.
    •   The taxpayer has neglected or refused to pay the amount within 10 calendar days after the
        notice and demand for payment.
When designated employees request the filing of a Notice of Federal Tax Lien using either the
ICS or the ACS, the ALS processes the lien filing requests from both Systems. In an expedited
situation, employees can manually prepare the Notice of Federal Tax Lien. Even for manually
prepared liens, the ALS controls and tracks the liens and initiates subsequent lien notices3 to
notify responsible parties of the lien filings and of their appeal rights. The ALS maintains an


1
  See Appendix VI for detailed descriptions of IRS computer systems used in the filing of Notices of Federal Tax
Lien.
2
  Notice of Federal Tax Lien (Form 668(Y) (c); (Rev. 10-1999)), Cat. No. 60025X.
3
  Notice of Federal Tax Lien Filing and Your Right to a Hearing Under IRC 6320 (Letter 3172 (Rev. 9-2006)),
Cat. No. 26767I.
                                                                                                          Page 18
                     Challenges Remain When Processing Undeliverable Mail
                         and Preventing Violations of Taxpayers’ Rights
                                  During the Lien Due Process



electronic database of all open Notices of Federal Tax Lien and updates the IRS’s primary
computer records to indicate that a Notice of Federal Tax Lien has been filed.
Most lien notices are mailed to taxpayers by certified or registered mail, rather than delivered in
person. To maintain a record of the notices, the IRS prepares a certified mail list (United States
Postal Service Form 3877), which identifies each notice that is to be mailed. The notices and a
copy of the certified mail list are delivered to the United States Postal Service. A United States
Postal Service employee ensures that all notices are accounted for, date stamps the list, and
returns a copy to the IRS. The stamped certified mail list is the only documentation the IRS has
that certifies the date on which the notices were mailed. IRS guidelines require that the stamped
certified mail list be retained for 10 years after the end of the processing year.




                                                                                            Page 19
                        Challenges Remain When Processing Undeliverable Mail
                            and Preventing Violations of Taxpayers’ Rights
                                     During the Lien Due Process



                                                                                              Appendix VI

      Internal Revenue Service Computer Systems
     Used in the Filing of Notices of Federal Tax Lien

The Automated Collection System (ACS) is a computerized call site inventory system that
maintains balance-due accounts and return delinquency investigations. ACS function employees
enter all of their case file information (online) on the ACS. Lien notices requested using the
ACS are uploaded to the ALS, which generates the Notices of Federal Tax Lien1 and related lien
notices and updates the IRS’s primary computer files to indicate that Notices of Federal Tax Lien
have been filed.
The Automated Lien System (ALS) is a comprehensive database that prints Notices of Federal
Tax Lien and lien notices, stores taxpayer information, and documents all lien activity. Lien
activities on both ACS and ICS cases are controlled on the ALS by Technical Support or Case
Processing functions at the Cincinnati, Ohio, Campus.2 Employees at the Cincinnati Campus
process Notices of Federal Tax Lien and lien notices and respond to taxpayer inquiries using the
ALS.
The Integrated Collection System (ICS) is an IRS computer system with applications designed
around each of the main collection tasks such as opening a case, assigning a case, building a
case, performing collection activity, and closing a case. The ICS is designed to provide
management information, create and maintain case histories, generate documents, and allow
online approval of case actions. Lien requests made using the ICS are uploaded to the ALS. The
ALS generates the Notices of Federal Tax Lien and related lien notices and updates the IRS’s
primary computer files to indicate Notices of Federal Tax Lien have been filed.
The Integrated Data Retrieval System (IDRS) is an online data retrieval and data entry system
that processes transactions entered from terminals located in campuses and other IRS locations.
It enables employees to perform such tasks as researching account information, requesting tax
returns, entering collection information, and generating collection documents. The IDRS serves
as a link from campuses and other IRS locations to the Master File3 for the IRS to maintain
accurate records of activity on taxpayers’ accounts.



1
  Notice of Federal Tax Lien (Form 668(Y) (c); (Rev. 10-1999)), Cat. No. 60025X.
2
  A campus is the data processing arm of the IRS. The campuses process paper and electronic submissions, correct
errors, and forward data to the Computing Centers for analysis and posting to taxpayer accounts.
3
  The Master File is the IRS database that stores various types of taxpayer account information. This database
includes individual, business, and employee plans and exempt organizations data.
                                                                                                        Page 20
                   Challenges Remain When Processing Undeliverable Mail
                       and Preventing Violations of Taxpayers’ Rights
                                During the Lien Due Process



                                                                           Appendix VII

              Statutory Lien Reports Issued During
                Fiscal Years 2006 Through 2010

Fiscal Year 2006 Statutory Review of Compliance With Lien Due Process Procedures
(Reference Number 2006-30-094, dated June 21, 2006)
Fiscal Year 2007 Statutory Review of Compliance With Lien Due Process Procedures
(Reference Number 2007-30-051, dated March 20, 2007)
Fiscal Year 2008 Statutory Review of Compliance With Lien Due Process Procedures
(Reference Number 2008-30-082, dated March 27, 2008)
Additional Actions Are Needed to Protect Taxpayers’ Rights During the Lien Due Process
(Reference Number 2009-30-089, dated June 16, 2009)
Actions Are Needed to Protect Taxpayers’ Rights During the Lien Due Process (Reference
Number 2010-30-072, dated July 9, 2010)




                                                                                     Page 21
                         Challenges Remain When Processing Undeliverable Mail
                             and Preventing Violations of Taxpayers’ Rights
                                      During the Lien Due Process

 
                                                                                       Appendix VIII

     Management’s Response to the Draft Report

                                      DEPARTMENT OFTHE TREASURY
                                       INTERNAL REVENUE SERVICE
                                         WASHINGTON, D.C. 20224

             COMMISSIONER
     SMALL BUSINESS/SELF·EMPLOYED DIVISION



                                               April 26, 2011

MEMORANDUM FOR MICHAEL R. PHILLIPS
                  DEPUTY INSPECTOR.GENERAL FOR AUDIT

FROM:         for Christopher Wagner /s/ Faris R. Fink
                            Commissioner, Small Business/Self-Employed Division

SUBJECT:                       Draft Audit Report - Challenges Remain When Processing Undeliverable
                               Mail and Preventing Violations of Taxpayers' Rights During the Lien Due
                               Process (Audit No. 20113001)

Thank you for the opportunity to review your draft report titled "Challenges Remain When Processing
Undeliverable Mail and Preventing Violations of Taxpayers' Rights During the Lien Due Process."

We agree with your recommendation as stated in the report. We continue to explore ways to enhance our
systemic processes to ensure notices are sent, as required, to the most current addresses of the taxpayers
and pursuant to policy, to authorized representatives. We also continue to strive to simplify and unify our
procedural approach to handling notices that are returned by the Postal Service.

We concur that the timely and proper issuance of lien Collection Due Process notices is of utmost
importance. You sampled 125 cases and found no instances in which a notice was sent to the wrong
address.
*********************1****************************************************************
*******************************. Although we do not dispute your finding *************1******
*********, we believe this was an isolated instance and ****************1*******************

Attached is a detailed response outlining our corrective actions to your recommendations.

If you have any questions, please contact me, or a member of your staff may contact Scott Reisher, Acting
Director, Collection Policy at (202) 283-7361.

Attachment
Challenges Remain When Processing Undeliverable Mail
    and Preventing Violations of Taxpayers’ Rights
             During the Lien Due Process




                                                  Page 23
